Massachusetts Lobstermen’s Association v. Ross, No. 20-97
Service List
Counsel for Respondents:
Jeffrey B. Wall
Acting Solicitor General of the United States
Room 5616
Department of Justice
950 Pennsylvania Ave., N.W.
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@usdoj.gov
Counsel for Defendant-Intervenor Natural Resources Defense Council:
Kate Desormeau
Ian Fein
Natural Resources Defense Council
111 Sutter Street, 21st Floor
San Francisco, CA 94104-4540
(415) 875-6158
kdesormeau@nrdc.org
ifein@nrdc.org
Counsel for Defendant-Intervenor Conservation Law Foundation:
Peter Shelley
Conservation Law Foundation
62 Summer Street
Boston, MA 02110
(617) 850-1770
pshelley@clf.org
Counsel for Defendant-Intervenors Center for Biological Diversity and R. Zack
Klyver:
Roger M. Fleming
Blue Planet Strategies, LLC
47 Middle Street
Hallowell, ME 04347
(978) 846-0612
rflemingme7@gmail.com

